BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari in Noble Cooper; Norman Cooper, Estate of;
Jennifer Cooper; Nathan Cooper; Carly Lopez,
Individually and as Next Friend of Nason Cooper and
Nevon Cooper, Minors; Nason Cooper, a Minor; Nevon
Cooper, a Minor v. Officer Oliver Flaig; Officer Arnoldo
Sanchez, were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 5th day of February, 2020:
Nathan Mark Ralls
Hoblit Darling Ralls Hernandez & Hudlow, L.L.P .
6243 IH-10, W., Suite 601
San Antonio, TX 78201
(210) 224-9991
mralls@hdr-law.com
Counsel for Respondents
EDWARD L. PINA

Counsel of Record
MATTHEW N. GOSSEN
Edward L. Pina & Associates, P. C.
8118 Datapoint Drive
San Antonio, Texas 78229
(210) 614-6400
epina@arielhouse.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 5, 2020.

Q.J-L--

Julie A. Kershner
Becker Gallagher Le a ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

jib/;

(rtv fJ

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

